Office of the Inspector General
Skip to content
Social Security Online
Office of the Inspector General
www.socialsecurity.gov
Home  |  Questions?  |  Contact
Us
Search
About
Hotline
Offices
Resources
Español
OIG Home
Audit
Report - A-02-96-61000
Office of Audit
Benchmarking Private Sector Policies and
Practices for Distributing Customer Notices - A-02-96-61000 - 9/22/97
TABLE OF CONTENTS
EXECUTIVE SUMMARY
INTRODUCTION
FINDINGS
MOST
ORGANIZATIONS SOLICITED CUSTOMER INPUT ON THEIR NOTICES
KEY COMMON PRACTICES
WERE IDENTIFIED
 Limiting Notices
to One Page
 Using Attachments
 Avoiding Confusing
Jargon
 Using Specialists
 Identifying
a Contact Person
 Using Graphics
 Using Bulleted Lists
 Testing Reading Level
CONCLUSION AND RECOMMENDATIONS
APPENDICES
Appendix B - Major Contributors to This Report
Back to top
EXECUTIVE
SUMMARY
OBJECTIVE
The objective of this evaluation was to determine how the private
sector and other public organizations distribute complex information
to their customers and compare that to the Social Security Administrations
(SSA) current practices.
BACKGROUND
SSA annually mails over 240 million notices to its customers.
These notices are the primary source of information customers receive,
even though SSA has 25 million visitors to its field offices
(FO) and 70 million callers to its 800 number annually.
SSA issues hundreds of different types of notices, including entitlement
decisions and changes, earnings statements, news of legislative or
policy changes, and statements of beneficiary rights.
In the Twelfth Annual Social Security Customer Satisfaction Survey,
the Office of the Inspector General (OIG) found that customers place
a great deal of importance on mail that is easy to understand. When
asked to select the 5 services (from a list of 17) that
were most important to them, customers most often selected clear
and easy-to-understand mail as the most important service. Sixty-two
percent of respondents mentioned clear mail as the most important
service.
The survey also found that some customers have problems understanding
the mail they received from SSA. Eighty-five percent reported receiving
mail other than a benefit check from SSA in the 12-month period covered
by the survey. Of these, 15 percent were dissatisfied with the
clarity and helpfulness of the mail.
We identified 10 public and private organizations whose services
or customer relationships are comparable to those of SSA. We gave
special attention to those who are required to mail complex information
to their customers. The organizations selected were known to provide
superior customer service and included three insurance companies,
two financial institutions, two other Federal agencies, two State
agencies, and one telecommunications provider. We conducted telephone
interviews with representatives from these organizations to identify
their methods for developing, designing, and mailing complex information,
and to solicit suggestions of best practices and lessons learned.
FINDINGS
Most Organizations Solicited Customer Input on Their Notices
Seven of the 10 respondents received feedback from customers concerning
their notices.
Most Organizations Were Legally Required to Include Certain Statements
in Their Notices
Eight respondents reported being legally required to include certain
information in their notices.
Key Common Practices Were Identified
Respondents offered many suggestions for simplifying and improving
customer notices. The common practices included, among others,
limiting the notice to one page, using attachments, and avoiding
confusing jargon.
RECOMMENDATIONS
In order to improve the overall presentation of complex information
to its customers, we recommend that SSA:
Use more of the practices reported by the study respondents, and
do so on a consistent basis. This would include testing a notice
which presents personal information on one page, and all other
information, including legally required information, on an attachment.
Establish a process which generates continuous customer input
on notices.
AGENCY COMMENTS
In its written comments to the draft report, SSA agreed with our
findings and the thrust of the recommendations. The Agency found
the information to be a helpful contribution to its continuing effort
to improve notices to the public. SSA further noted that it already
uses many of the suggestions mentioned in this report and will consider
other recommended practices as new notices are developed and the
Agencys ongoing notice improvement work continues.
OIG RESPONSE
OIG believes that the practices used by the organizations we contacted
helped customers better understand complex information presented
through notices. Further, we recognize SSAs continuing efforts
to improve its notices to the public by already implementing many
practices highlighted in this report. We believe that the implementation
of the remaining recommended practices, where appropriate, will further
support SSAs ongoing notice improvement and future notice development.
Back to top
INTRODUCTION
OBJECTIVE
The objective of this evaluation was to determine how the private
sector and other public organizations distribute complex information
to their customers and compare that to SSAs current practices.
BACKGROUND
SSA annually mails over 240 million notices to its customers.
These notices are the primary source of information customers receive,
even though SSA has 25 million visitors to its FOs and 70 million
callers to its 800 number annually. SSA issues hundreds of different
types of notices, including entitlement decisions and changes, earnings
statements, news of legislative or policy changes, and statements
of beneficiary rights.
SSAs Office of Program Support (OPS) within the Office of
Programs and Policy, Office of General Counsel, and many other components
work together to ensure that SSA notices are both clear and accurate.
This is done in support of the SSA Customer Service Pledge which
states, "We will clearly explain our decisions so you can understand
why and how we made them and what to do if you disagree."
Due to its vast customer population, SSA strives to write these
notices as consistently and simply as possible, and has developed
Notice Standards to facilitate this practice. SSAs Notice Standards
set criteria for reading levels, length of sentences, salutations,
translations, etc. For example, the standards require that notices
should be written at a sixth- to eighth-grade reading level, which
is the level currently used in most newspapers. The standards also
require that the content of each notice should be clear, logical,
pertinent, and sufficient to allow the reader to decide if he/she
disagrees with a decision.
Previous Evaluations of SSA Notices
In the Twelfth Annual Social Security Customer Satisfaction Survey,
OIG found that customers place a great deal of importance on mail
that is easy to understand. When asked to select the 5 services
(from a list of 17) that are most important to them, 62 percent
of the respondents mentioned clear and easy-to-understand mail as
the most important service.
This same survey found that some customers have problems understanding
the mail they received from SSA. Eighty-five percent reported receiving
mail, other than a benefit check, from SSA in the past 12 months.
Of these, 15 percent were dissatisfied with the clarity and
helpfulness of that mail.
OIG also conducted a number of studies specifically examining SSA
notices. In 1992, the Department of Health and Human Services, Office
of Inspector General (HHS/OIG), evaluated the extent to which SSA
notices were clear, appropriate to the audience, and met SSAs
Notice Standards. The reports issued as a result of that study, "Clarity
of Supplemental Security Income Notices" (OEI-07-90-02410) and "Examples
of Revised Supplemental Security Income Notices" (OEI-07-90-02461),
found that although the notices reviewed met the standards for reading
level and sentence length, some other aspects of the notices continued
to be difficult to understand. While most of the respondents to that
study understood the main message of the notice, they did not understand
other important notice information. Specifically, Supplemental Security
Income respondents found the Notice of Award and explanations regarding
payment changes particularly difficult to understand. The study also
found that SSA had no systematic process for monitoring the effectiveness
of its notices.
In another HHS/OIG study, "Employee Opinions of Social Security
Notices" (OEI-05-92-00042), dealing with employee comments and
concerns about SSA notices, employees noted the publics dissatisfaction
with notices. The employees believed that many notices were unclear,
especially to those unfamiliar with SSA programs. This, in turn,
may cause the public to contact FOs or the 800 number for explanations.
The employees thought the notices contained too much jargon, were
too long and rambling, had reading levels that were too high, contained
inconsequential information, and/or lacked a sequential presentation
of the facts.
PRE-EVALUATION SUMMARY
We met with SSAs OPS staff to obtain their input and understanding
as to the issues and focus for this survey. Additionally, we reviewed
the Program Operations Manual System, specifically the area dealing
with notices, letters, and paragraphs (NL 0700.000) to gain
a better understanding of the regulations guiding the issuance of
notices. Further, we made some preliminary telephone calls to public
and private organizations to determine if they had notice-writing
policies.
METHODOLOGY
We identified 10 public and private organizations whose services
or customer relationships are comparable to those of SSA. We gave
special attention to those that are required to mail complex information
to their customers. The organizations selected were known to provide
superior customer service and included three insurance companies,
two financial institutions, two other Federal agencies, two State
agencies, and one telecommunications provider. We conducted telephone
interviews with representatives from these organizations to identify
their methods for developing, designing, and mailing complex information,
and to solicit suggestions of best practices and lessons learned.
We then held additional discussions with SSA staff to identify their
methods for designing and mailing notices.
Our review was conducted from August 1996 to February 1997. This
evaluation was performed in accordance with the Quality Standards
for Inspections issued by the Presidents Council on Integrity
and Efficiency.
Back to top
FINDINGS
MOST
ORGANIZATIONS SOLICITED CUSTOMER INPUT ON THEIR NOTICES
Seven of the 10 organizations we contacted received customer feedback
concerning their notices. Some mentioned working hand-in-hand with
local advocacy groups to obtain customer input. The feedback ranged
from focus groups, the most frequently mentioned, to satisfaction
surveys and comment cards. One respondent established an 800 number
specifically for questions or problems concerning letters customers
had received from the company.
Customer input varied and included such suggestions as using simpler
language, avoiding the use of patronizing language, increasing the
use of bullets and lists, and using fewer words and more graphics
in the notices. Respondents stressed that obtaining customer input
before sending out notices enabled them to identify and clarify confusing
material before incurring the expense of mailing notices to customers.
MOST
ORGANIZATIONS WERE LEGALLY REQUIRED TO INCLUDE CERTAIN STATEMENTS
IN THEIR NOTICES
SSA is legally required to include certain information in its notices
(e.g., appeal rights must be included.) Eight respondents also reported
being legally required to include certain information in their notices.
These requirements included any and all changes in account history,
pricing and rate changes, credit sources, and appeal rights. One
respondent reported that 99 percent of its notice is made up of language
to satisfy legal requirements. Other respondents explained that legal
requirements varied from case to case.
Some respondents reported meeting legal requirements through the
use of separate fact sheets or attachments. They explained that this
fulfilled all legal requirements while making the notice somewhat
easier to read.
KEY COMMON PRACTICES
WERE IDENTIFIED
Respondents offered many suggestions for simplifying and improving
customer notices. They included:
Limiting Notices to
One Page
Seven of the 10 respondents said they kept their notices to one
page or less. They used various methods to do this (e.g., using both
sides of the page, attachments, graphics, etc.). The three respondents
whose notices exceeded one page in length reported that the complexity
of their notices precluded limiting them to one page.
Currently, SSA is not able to limit all of its notices to one page;
however, several SSA task groups are looking for ways to make this
possible.
Using Attachments
In order to make the notices as brief as possible, all 10 respondents
removed the required complex legal information from the body of the
notices and placed it in attachments. Further, they suggested that
attachments should be no more than one page and on the same size
and type of paper as the notice itself. Many found through surveys
that customers are more likely to read attachments of this type,
rather than folded brochures or other types of fliers.
Some respondents reported using monthly newsletters to inform customers
of legal issues or policy changes that might concern them. Therefore,
it became unnecessary to repeat the policy changes in individual
notices, making them shorter.
SSA is currently looking into a more widespread use of attachments.
Avoiding Confusing Jargon
Respondents repeatedly mentioned using simple, clear language as
a way to clarify notices. Specifically, they recommended writing
in plain English and avoiding the use of professional or agency jargon
which may be foreign and confusing to the customer. Respondents also
mentioned having selected customers test the notices to identify
and clarify any confusing language.
Currently, SSA attempts to avoid confusing jargon while fulfilling
its legal requirements.
Using Specialists
When asked to describe methods used to create notices, all respondents
reported obtaining input from their legal departments first to ensure
accuracy of the information being provided. However, more than half
believed it was important to have specialists write the notices to
avoid the technical terminology used by the legal department.
Specialists are those individuals actively involved in the subject
or programmatic area covered by the notice, rather than experts in
the area of writing notices. Specialists would, therefore, be better
versed in any issues that might arise as a result of statements made
in the notice.
Currently, SSA uses teams of notice writers, legal experts, and
specialists to work on its notices.
Identifying a Contact
Person
Another common suggestion was to identify a contact person and telephone
number in each notice. "Customers like the idea of knowing exactly
where to go if they have a problem," explained one respondent.
Those who did not give a specific name and telephone number provided
a general telephone number where customers could obtain assistance.
SSA currently includes its toll-free 800 number on every notice.
Using Graphics
Respondents mentioned the use of graphics as an effective tool for
reducing the number of words in a notice without changing the message.
One respondent reported, "Graphics rate very highly in our focus
group testing. Were sending the same exact message, but the
approach is different and the customers prefer looking at the graphs
to reading more words." Customers also preferred the use of
illustrative charts and tables when possible, again with the result
being a decrease in the number of words while maintaining the message.
SSA has not, to date, used graphics in its notices.
Using Bulleted Lists
Another repeated suggestion was the use of bulleted lists, bold
print, and italics to emphasize important parts of the notice and
to clarify the message. Respondents reported that customers find
it easier to have the most important parts of the notice highlighted
with bullets because it gives them a place to focus their attention.
Respondents found that customers appreciate having ". . . everything
boiled down to one clear little list."
SSA routinely uses bulleted lists when appropriate.
Testing Reading Level
Half of the respondents reported testing the reading level of a
notice before it is sent. There are a number of tests available for
this purpose, including the Flesch-Kincaid Index and Gunning Fog
Index. Respondents suggested maintaining a reading level of eighth
grade or lower, and fifth grade if at all possible.
SSA currently maintains a sixth- to eighth-grade reading level on
most of its notices.
Back to top
CONCLUSION
AND RECOMMENDATIONS
SSA currently uses some of the same practices as those reported
by the respondents to our survey in developing notices (e.g., testing
reading levels, avoiding jargon, etc.). However, the use of the other
reported practices is sporadic. Additionally, although SSA occasionally
seeks customer input concerning notices, the process does not generate
continuous input. To improve the overall presentation of complex
information to its customers, we recommend that SSA:
Use more of the practices reported by the study respondents, and
do so on a consistent basis. This would include testing a notice
which presents personal information on one page, and all other
information, including legally required information, on an attachment.
Establish a process which generates continuous customer input
on notices.
AGENCY COMMENTS
SSAs comments on our draft report are contained in their entirety
in Appendix A. SSA agreed with our findings and the thrust of the
recommendations. The Agency found the information to be a helpful
contribution to its continuing effort to improve notices to the public.
SSA further noted that it already uses many of the suggestions mentioned
in this report and will consider other recommended practices as new
notices are developed and the Agencys ongoing notice improvement
work continues.
OIG RESPONSE
OIG believes that the practices used by the organizations we contacted
helped customers better understand complex information presented
through notices. Further, we recognize SSAs continuing efforts
to improve its notices to the public by already implementing many
practices highlighted in this report. We believe that the implementation
of the remaining recommended practices, where appropriate, will further
support SSAs ongoing notice improvement and future notice development.
Back to top
APPENDIX
B
MAJOR CONTRIBUTORS TO THIS REPORT
Office of the Inspector General
E. Scott Patterson, Director, Evaluations and Technical Services
Timothy F. Nee, Acting Deputy Director
Tracey K. Rennie, Evaluator-in-Charge
Stephen L. Liebman, Auditor
Privacy Policy | Website
Policies & Other Important Information | Site
Map
Need Larger Text?
Last reviewed or modified